UNITED STATES OF AMERICA

PEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Division of Enforcement
Bureau of Consumer Protection

December 8, 2008

Michael H. Bai, Esq.
Littleton Joyce Ughetta Park & Kelly LLP
39 Broadway, 34th Ploor
New York, NY 10006
Dear Mr. Bai:
Thank you for your letter to the Commission, dated October 10, 2008, requesting our
advice and interpretation concerning use of the term "Lyocell" on tires pursuant to 16 C.F.R. §
303. As you requested during a telephone conversation with my staff on December 3,2008, we
are treating your letter as a request for a staff advisory opinion. This letter is a formal response
to your request, memorializing the email response provided by Steve Ecklund on November 12,
2008.
Tires are not subject to the Textile Fiber Products Identification Act and, therefore, the
FTC list of generic fiber nan1es set forth at 16 C.P.R. § 303.7 does not apply. However, any
marketing is stilI subject to Section 5 of the FTC Act, 15 U.S.C. § 45, which forbids deceptive
and tmfair practices in or affecting commerce. I suggest that you carefully review the following
two Policy Statements in tIus regard:
http://\V\vw.ftc.govlbcp/policvstmt/ad-decept.htm
http://www.ftc.govlbcp/gllides/ad3subst.htm
If a company makes a claim about its product (such as that it contains LyoceIl), the claim
should not be "deceptive" and the company should have reasonable "substantiation" for that
claim. We are not textile chemists and we do not test products for their fiber content unless we
do so as part of an official law enforcement action - and then we would contract with a private
lab to conduct the actual testing.! Therefore, we decline to render an opinion regarding whether
a representation that your tires contain Lyocell would comply witI1 Section 5 ofthe FTC Act.
In accordance with Section 1.3(c) of the Commission's Rules of Practice and Procedure,
16 C.F.R. § 1.3(c), this informal staff opinion has not been reviewed or approved by the

In accordance with Section 1.1 oftl1e Commission's Rules of Practice and Procedure,
16 C.F.R. § 1.1, we do not ordinarily provide an opinion if an infoDned opinion Call110t be made
or could be made only after extensive investigation, clilucal study, testing, or collateral inquiry.
I

Commission or by an individual Commissioner, and is given without prejudice to the right of the
. Commission later to rescind the advice and, where appropriate, to commence a law enforcement
action. In addition, this office retains the right to reconsider its advice, and with notice to the
requesting patiy, rescind or revoke its opinion if the response is used for improper purposes, or if
it would be in the public interest to do so.
Pursuant to Section 1.4 of the Commission's Rules of Practice and Procedure, 16 C.F.R.
§ 1.4, this response along with your request for advice will be placed on the public record,
subject to any limitations on public disclosure arising from statutory restrictions, the
Commission's rules, atld the public interest. Hopefully, the preceding has been helpful.

KOlA

lvi.-/

Jatn A.
Associate Director
Division ofEnfocement

2

39 Broadway

LITTLETON JOYCE
UGHETTA PARK
NEW YORK CITY

& KELLY LLP

I PURCHASE,

NY

I

R'ED BANK. NJ

34th Floor
New York. NYroo06
Tel (212) 404-5777
Fax (212) 232-0088

www.litllelonjt?J1ce.com
Direct Dial: (212)404-5775

E-Mail:"michael.bai@littletolljoyce.com

October 10, 2008
VIA FEDERAL EXPRESS
Federal Trade Commission
600 Pennsylvania Avenue, NW
Washington, DC 20580
Attention:

Re:

Secretary of the Commission

Use of the Term "Lyocell" on Tires Pursuant to 16 CFR §303.7(d)

Dear Secretary ofthe Commission:
The undersigned has been retaioed by Hyosung Corporation (''Hyosung'') to obtain the
Federal Trade Commission's ("FTC") advice/interpretation concerning whether, pursuant to 16
CFR §303.7(d), Hyosung and its customers, specifically Kurnho Tire Co., Inc. ("Kurnho Tire"),
may use the term "Lyocell" on the tire's sidewall to describe the fibers in the tire's cord
materials.
We have received the attached letter (Exhibit "A") from the Chief Counsel for the
National Highway Traffic Safety Administration ("NHTSA") in response to our request for
interpretation on behalf of Kurnho Tire Co., Inc. (Exhibit "B"). NHTSA's Chief Counsel states
that pursuant to 49 CFR § 571.139 paragraph S5.5(e), Kurnho Tire may use the FTC-established
generic tenn "Lyocell" on the tire's sidewall to describe the fibers in the tire's cord materials.
However, NHTSA's Chief Counsel informed us that its answer was conditioned upon FTC
concurrence that the generic name "Lyocell" is properly applicable to Kurnho Tire's tire fiber
cord material.
We have attached Hyosung's formula fur the "Lyocell" material that is in the tire's cord
material (Exhibit "C"). Since the formula meets the definition for "Lyocell" pursuant to 16 CFR
§303.7(d), please confirm that Hyosung's customers, namely Kurnho Tire, may use the term
"Lyocell" on the tire's sidewall in tires that use "Lyocell" cord material.

Use ofthe Tenn ''Lyocell'' on Tires Pursuant to 16 CFR §303.7(d)
Page 2

If you have any questions, please do not hesitate to contact me at 212-404-5775. Ifany
additional information is necessary, please advise me. Thank you for your attention to this
matter.
Very truly yours,
LITTLETON JOYCE UGHET A PARK & KELLY LLP

. Bai

Enclosures:

Exhibit "A"
Exhibit "B"
Exhibit "c"

August 25, 2008 Letter from NHTSA
April 2, 2008 Letter to NHTSA
Hyosuog Corporation's Lyocell FonnuIa

LITTLETON JOYCE UGHETTA PARK

& KELLY LLP

AUG 2 5
U.S. Department
ofTransportatlon
National Highway
Traffic Salety
Administration

>~U

1200 New Jersey Avenue SE.
WashIngton, DC 20590

Mr. Michael H. Bai
Littleton Joyce Ughetta Park & Kelly LLP
39 Broadway
34th Floor
New York, NY 10006
Dear Mr. Bai:
This responds to your letter requesting an interpretation of one ofthe labeling
requirements of Federal Motor Vehicle Safety Standard (FMVSS) No: 139, New
pneumatic radial tires for light vehicles. You ask whether, if your client Kumho Tires
incorporates "lyocell" fibers in the cord materials for the tire's plies, it would be
permissible under S5.5(e) ofFMVSS No. 139 to label the tire sidewall with either
"lyocell" or "rayon."
Our answer is a qualified yes, We have made a few assumptions'i'!J answering yoUr letter.
First, we assume that the cord material in question is in fact lyocell and that you simply
ask if reference to "Iyocell" or "rayon" may be used to describe the material. Second,
you state that under Federal Trade Commission (FTC) regulations, "Iyocell" and "rayon"
are generic names for lyacell; for the purposes of this letter, we assume your
understanding is correct. However, for a complete answer to your question, you should
contact the FTC to obtain its concurrence that you have correctly understood the FTC
regulation.
By way of background, the National Highway Traffic Safety Administration (NHTSA) is
authorized to issue FMVSSs that set performance requirements for new motor vehicles
and items of motor vehicle equipment (see 49 U.S .C, Chapter 301). NHTSA does not
provide approvals of motor vehicles or motor vehicle equipment. Instead, manufacturers
are required to self-certify that their products conform to all applicable safety standards
that are in effect on the date of manufacture. NHTSA selects a sampling of new vehicles
and equipment each year to detennine their compliance with applicable FMVSSs. If our
testing or examination reveals an apparent noncompliance, we may require the
manufacturer to reniedy the noncompliance, and may initiate an enforcement proceeding
ifnecessary to ensure that tile manufacturer takes appropriate action.

*****
NHTSA

2

Paragraph S5.5 of FMVSS No. 139 specifies tire markings for new pneumatic radial tires
for use on motor vehicles (other than motorcycles and low speed vehicles) that have a
gross vehicle weight rating (OVWR) of 10,000 pounds or less. Among the information
required by S5.5 to be marked on the tire sidewall, S5.5(e) requires "The generic name of
each cord material used in the plies (both sidewall and tread area) of the tire." NHTSA
requires this information to help tire purchasers select the characteristics they want in a
given tire, because the many different cord materials that exist and their many different
characteristics enable a tire to be specially geared to its anticipated use.
Your letter states that FTC regulations (16 CFR § 303.7(d)) permit the use ofthe generic
name "lyocell" or "rayon" where the fabric used is "Iyocell." NHTSA has previously
favorably cited FTC-established generic names for cord materials. In a January 20, 1976
letter of interpretation, NHTSA advised that if Kevlar was used as a cord material in a
tire; it must be identified by its generic name, which, NHTSA stated, the FTC established
as "Aramid" pursuant to the Textile Fiber Product Identification Act.
Assuming you are correct that the FTC has established that lyoceJl fibers may be
identified by either the generic name "Iyocell" or the generic name "rayon," and because
we have previously accepted FTC-established generic names for tire cord material
labeling required by the FMVSSs, in our opinion using either "lyocell" or "rayon" as the
generic name for lyocell tire cords would be acceptable under FMVSS No. 139.
However, our answer is conditional on FTC concurrence that the genetic names "lyoceJl"
and "rayon" are properly applicable to your client's tire cord material. We suggest that
you follow up with the FTC on this matter.
I hope this information is helpful. If you have any further questions, please do not
hesitate to contact Rebecca Schade of my staff at (202) 366-2992.
Sincerely yours,

~
\(--Anthony M. Cooke
ChiefCounsel

LITTLETON J OyeE
UGHETTA PARK
NEW YORK CITY

& KELLY LLP

I PURCHASE,

NY

I RED

BANK, NJ

39 Broadway
34th floor
New York. NY 10006
Tel (212) 404-5777
Fax (212) 232-0088

www.littletonjl2Jce.com
Direct Dial: (212) 404·5775
E-Mail: michael.hai@littletonjoyce.com

April 2, 2008
VIA FACSIMILE AND REGULAR MAIL
The Chief Counsel
National Highway Traffic Safety Administration, NCC-Ol
400 7th Street, SW
Washington, D.C. 20590
Re:

Request for Interpretation of 49 CFR §571.139 Concerning the Use of the
Generic Name "Lyocell" or "Rayon"

Dear Chief Counsel:
The undersigned serves as counsel for Kumho Tire Co., Inc. ("Kumho Tires"). Pursuant
to 49 CFR § 571.139 paragraph S5.5(e), ifKumho Tires incorporates "lyocell" fibers in the cord
materials for the tire's plies, may Kumho Tires place either the generic name "lyocell" or
"rayon" on the tire's sidewall?
Under 49 CFR § 571.139 paragraph S5.5(e), Kumho Tires must identify the generic name
of each cord material used in the tire's plies on the tire's sidewall. I Pursuant to 16 CFR
§303.7(d), the Federal Trade Commission ("FTC") allows for a manufacturer to use the term
"lyocelJ" or "rayon" as a generic name for manufactured lyocelJ fibers. 2

1

49 CFR § 571.139; New pneumatic tires for light vehicles.

35.5 Tire markings. Except as specified in paragraphs Ca) through Ci) of S5.5. each tire must be marked on each sidewall
with the information specified in S5.5(.) through (d) and on one sidewall with the information specified in S5.5(0) through (i)
according to the phase~in schedule specified in 87 of this standard. The markings must be placed between the maximum section
width and the bead on at least one sidewall. unless the maximum section width of the tire is located in an area that is not more
than one-fourth of the distance from the bead to the shoulder of the tire. If the maximum section width tails within that area,
those markings must appear between the bead and a point one-half the distance from the bead to the shoulder of the tire. on at
least one sidewall. The markings must be in letters and numerals not less than 0.078 inches high and raised above or sunk below
the tire surface not less than 0.015 inches.

(c) The generic name oreach cord materia) used in the plies (both sidewall and tread area) of the tire;
1

16 CFR § 303.7 Generic names and definitions for manufactured fibers.

Letter to NHTSA re: Request for Interpretation of 49 CFR §571.139 Concerning the Use of the
Generic Name "Lyocell" or "Rayon"
April 2, 2008
Page 2

According to the above-referenced regulations, the FTC permits the use of the genetic
name "lyocell" or "rayon" where the fabric used is "lyocell". However, NHTSA regulations
concerning tire labeling are silent on the "generic name of each cord material" tlJat may be used.
Therefore, we request clarification and confmnation that Kumho Tires may label its tires as
either "lyocell" or "rayon" as long as the tire cord matetials are manufactured using "lyocell."

If NHTSA respond by requiring Kumho Tires to label the tires as "lyocell", we would
appreciate it ifNHTSA could provide us with the regulation suppOliing NHTSA's conclusion.
Thank you for your attention and assistance in this matter. Your earliest reply would be
greatly appreciated. Please do not hesitate to contact the undersigned if you have questions.
Very truly yours,
LITTLETON JOYCE UGHETTA PARK & KELLY LLP

•
Michael H. Bai

Pursuant to the provisions of section 7(c) of the Act, the Commission hereby establishes the generic names for manufactured
fibers, together with their respective definitions, set forth in this section, and the generic names for manufactured fibers, together
with their respective definitions, set forth in international Organization for Standardization ISO 2076: 1999(E), "Textiles-Man-

made

fibres~~Generic

names. tl This incorporation by reference was approved by the Director of the Federal Register in

accordance with 5 U.S.C. 552(a) and I CFR part 51. Copies may he ohtained from ti,e American National Standards Institute, II
West 42nd St., 13th floor, New York, NY 10036. Copies may be inspected at the Federal Trade Commission, Room 130,600

Pennsylvania Avenue, NW., Washington, DC 20580, or at the National Archives and Records Administration (NARA). For
information on the availability of this material at NARA, cail 202-741-6030, or go to: http://www.archives.gov/federal-

registcr/code--of--federal-regulations/ibr-Iocations.html.
(d) Rayon-A manufactured fiber composed of regenerated cellulose, as well as manufactured fibers composed of regenerated
cellulose in which substituents have replaced not more than 15% of the hydrogens of the hydroxyl groups. Where the fiber is
composed ofceltulose precipitated from an organic solution in which no substitution orihe hydroxyl groups takes place
and no chemical intermediatesnre formed. the term Ivocell may be used as a generic description of the fiber.

LITTLETON JOYCE UCHETTA PARK & KELLY LLP

•I

I

0

I

0

I

"iii

0

0

~

0

>.

0

..J
I

0

I

0
0

I

0

I
fa
.-

:::s

:;::;-

E
l0

u.

--

CIJ
U

0

"

I

(.)

0

"

U)

0

0

""

c

;-"\/

o

"

ell
~

:l

<Il

z

"'-----I \ 0

>-

"0
III

E'

e-

III

is

0

:E
:E

z

....I

I

•I

0

I

0

I

0
0

I

0
J:

0

J:

0

0

J:

0

I

':2'""
0

"iii
()

